FAA MUST IMPROVE ITS CONTROLLER
TRAINING METRICS TO HELP IDENTIFY
         PROGRAM NEEDS
       Federal Aviation Administration
        Report Number: AV-2011-072
        Date Issued: March 30, 2011
            U.S. Department of
                                                                       Memorandum
            Transportation
            Office of the Secretary
            of Transportation
            Office of Inspector General


Subject:   INFORMATION: FAA Must Improve Its                                                       Date:    March 30, 2011
           Controller Training Metrics To Help Identify
           Program Needs
           Federal Aviation Administration
           Report Number AV-2011-072

  From:    Jeffrey B. Guzzetti                                                                 Reply to
                                                                                               Attn. of:    JA-10
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

            The Federal Aviation Administration (FAA) plans to hire and train nearly
            11,000 new air traffic controllers through fiscal year (FY) 2019 to replace the
            large numbers of those now retiring. As FAA begins training this influx of new
            hires, it must have accurate metrics on their training progress to ensure that key air
            traffic control facilities have enough controllers for safe and efficient operations.
            In 2009, at the request of Representative Jerry F. Costello, then Chairman of the
            House Subcommittee on Aviation, we reviewed training failures among newly
            hired air traffic controllers. 1 During that review, we found that FAA’s reported
            training failure rate was not accurate and that FAA’s primary source of training
            failure data, the National Training Database (NTD), 2 contained outdated and
            inaccurate data. Both are critical metrics for managing this important program.

            This review follows up on our 2009 audit. Our audit objectives were to
            (1) evaluate FAA’s actions to improve its system for tracking the training progress
            of newly hired controllers and (2) review FAA’s metrics for measuring and
            reporting the effectiveness of its controller training program. As a part of the
            evaluation, we examined FAA’s methodology for calculating the training attrition
            and completion rates of developmental (new) controllers. We conducted this

            1
                OIG Report Number AV-2009-059, “Training Failures Among Newly Hired Air Traffic Controllers,” June 8, 2009.
                OIG reports are available on our website: www.oig.dot.gov.
            2
                The NTD is FAA’s primary tool for national oversight of the controller training program. FAA uses the NTD to
                track the progress of developmental controllers at air traffic facilities. Originally designed to track the training time
                for developmental controllers, the database was expanded to capture data relating to the various categories of
                training attrition, including training failures.
                                                                                    2


review between November 2009 and January 2011 in accordance with government
auditing standards prescribed by the Comptroller General of the United States.
Exhibit A details our scope and methodology.

RESULTS IN BRIEF
FAA has improved its tracking process for new controller training over the last
year. The Agency has taken a number of corrective actions to address the
problems we identified in 2009 that contributed to an inaccurate training failure
rate reported for newly hired controllers. These actions include establishing a new
Quality Assurance Group in March 2010 to oversee NTD data collection,
separately tracking new hires and veteran controllers, distinguishing between
training failures and other types of attrition in the NTD, and issuing guidance to
enforce data accuracy. While these actions are positive steps towards improving
how it tracks the training progress of newly hired controllers, FAA continues to
face challenges in identifying training program needs and measuring the overall
success of the training program.

FAA’s metrics for measuring the effectiveness of the controller training program
do not provide a complete picture because they include controllers who have not
completed their initial training. For example, if there are 100 controllers in the
training program and 9 of those controllers fail or leave, FAA reports an attrition
rate of 9 percent. This produces unrealistic results because some of the remaining
91 in-progress controllers may also leave the program at a later time. Eventually,
all controllers in training will either be certified or leave the program, but because
FAA includes all in-progress controllers in its attrition rate, it dilutes the
program’s actual loss and completion rates. As a result, FAA cannot rely on these
data to make appropriate and timely adjustments to the program. When we
assessed the number of controllers who successfully completed training against
those who did not, we found a significantly higher attrition rate of 21 percent for
newly hired controllers. This presents a very different picture of success
compared to the 9-percent attrition rate reported by FAA for FY 2009.

Accurate training data are necessary so that FAA can adequately prepare new hires
to replace retiring veteran controllers, assign new hires to the appropriate level and
type of facility, and adjust its training program when warranted.                  Our
recommendation focuses on steps FAA should take to measure and present a more
complete picture of the effectiveness of its air traffic controller training program.

BACKGROUND
New air traffic controllers must complete an arduous training program that
includes learning the basic concepts of air traffic control at the FAA Academy,
followed by extensive facility training at their assigned location. Those controllers
                                                                                                                     3


who are unable to pass the training process are either (1) transferred within their
assigned facilities to a new area of operation, (2) transferred to a less complex
facility to begin the training process again, or (3) terminated from employment
with FAA. While certification times for individual controllers may vary, FAA’s
goal is to have terminal candidates—who manage air traffic in the vicinity of
airports—complete the training process in 2 years, and en route candidates—who
manage high-altitude traffic—in 3 years.

FAA HAS IMPROVED ITS TRACKING PROCESS FOR NEW
CONTROLLER TRAINING OVER THE LAST YEAR
FAA has taken a number of actions in response to our June 2009 report to improve
its tracking process for newly hired controllers in training. For example, we
recommended that FAA develop a process for conducting periodic reviews to
ensure that air traffic facilities complied with NTD data entry requirements and
identify factors that could indicate trends or causes of training failures. In March
2010, the Technical Training Organization 3 established the Quality Assurance and
Reporting Group to conduct periodic reviews of NTD data collection. The group
is also responsible for maintaining complete records on all aspects of new
controller training, including the dedicated tracking of newly hired and veteran
controllers’ training progress. This was a good step toward improving the
accuracy and oversight of training data within the NTD.

We also recommended that FAA develop a comprehensive definition of “training
failure” and other types of training attrition and consistently apply these
definitions at the 316 air traffic facilities and FAA Headquarters. This is
important because we found FAA’s classification process for training attrition—
either due to failure or facility transfer—was too subjective. Individual managers
exercised wide leeway in how they classified attrition, often citing reasons other
than training failure for an employee’s transfer or termination. This made it
impossible to ensure that the data facility training managers entered in the NTD
accurately reflected why new controllers did not successfully complete their
training. FAA’s actions to address this recommendation included:

    • adding a new table of definitions to the NTD that distinguish between training
      failures and other types of training attrition and
    • issuing a memorandum in March 2010 to FAA’s Vice Presidents of both
      Terminal and En Route and Oceanic Services requesting that NTD entries be
      kept up to date (updated every 14 days) and more reliable (by using the NTD’s
      data error checker).


3
    FAA Air Traffic Organization, Technical Training has oversight of the air traffic controller training program.
                                                                                   4


FAA’s actions were sufficient for us to close the recommendations from our prior
report. However, FAA must now ensure that the training managers at
Headquarters and all air traffic control facilities consistently implement these
actions to ensure they accurately report new controller training data.

FAA’S METRICS FOR MEASURING EFFECTIVENESS DO NOT
PROVIDE A COMPLETE PICTURE OF THE CONTROLLER
TRAINING PROGRAM
While FAA has improved its tracking process, the current metrics for measuring
the effectiveness of its controller training program do not provide a complete
picture of program success because they include controllers who have not
completed their initial training. As a result, FAA is not reporting an attrition rate
that it can rely on to make warranted adjustments to the training program. During
our review, we used alternate metrics that focused on the annual output of the
training program. These showed a significantly higher FY 2009 attrition rate for
new controller training than what FAA reported.

FAA’s Method Understates Actual Controller Attrition
FAA measures the effectiveness of its controller training program by calculating
the percentage of training attrition for the fiscal year in which the new controllers
start their initial training. For example, according to FAA, as of March 2010, the
attrition rate for new controllers who started their initial training in FY 2009, or
the “Class Hired in FY 2009,” was 9 percent, as depicted in figure 1 below.

Figure 1. FAA’s New Controller Training Data for “Class Hired in FY 2009”

             In-Progress 87%
             (1,387
             Controllers)




                               Attritions 9%                 Successes 4%
                                    (136                    (71 Controllers)
                                Controllers)

      Source: FAA
                                                                                    5


However, figure 1 also shows that the success rate was only 4 percent while
87 percent of the controllers were still completing their initial training, which can
take 2 to 3 years. While FAA’s metrics show a lower reported attrition rate for
new controllers, this methodology will not give a complete picture of the
effectiveness of the training program until all 1,387 new, in-progress controllers
complete their initial training. For the 9-percent attrition rate to be realized, FAA
is assuming that all of these controllers will succeed. This is an unrealistic
assumption given that, historically, it is not uncommon for newly hired controllers
to leave after more than 2 years in training.

As more new hires complete their initial training, the attrition rate has historically
increased. For example, we examined FAA’s attrition data for all new controllers
hired in FY 2007. In December 2007, FAA reported that the attrition rate for
those new controllers was approximately 7 percent. In March 2010, more than
2 years later, FAA reported the attrition rate for the same “Class Hired in
FY 2007” controllers was 24 percent (see figure 2). By including in-progress
controllers in the training output metrics, FAA is diluting the attrition and
completion rates until most of the controllers have completed training. However,
waiting 2 years for most controllers to complete the training would not allow FAA
to make adjustments to the program to boost controller training success.

Figure 2. FAA’s New Controller Training Data for “Class Hired in FY 2007”
                          as of March 2010
                                            Successes-60%
                                                (1,097
                                             Controllers)




                                                    Attritions- 24%
                      In-Progress-16%                     (435
                      (295 Controllers)
                                                     Controllers)
       Source: FAA


Our analysis shows that a better metric for measuring the effectiveness of the
training program would be to focus on how many controllers complete their
training or leave the program during a given period of time, regardless of when
they were hired. We used this metric during our review and found that it gives a
more complete picture of the training program results because it captures the
actual success of the program over an extended period of time and eliminates the
                                                                                                      6


uncertainty of in-progress controllers. Officials from Raytheon who manage the
controller training program and our senior statistician also concur that this is a
more realistic and comprehensive method for measuring the effectiveness of new
controller training and that it is misleading to include in-progress controllers in the
attrition rate calculations.

Using this approach, we analyzed the success rate of all new controllers who
completed their initial training over the past 3 years, regardless of when they
began their training. We grouped the controllers by the fiscal year they ended
training and then identified whether they ended the training successfully or
unsuccessfully. Our analysis showed that the attrition rate for the controllers who
ended their initial training in FY 2009 was 21 percent, and their success rate was
79 percent (see figure 3 below). These metrics show an attrition rate more than
double the 9-percent FY 2009 attrition rate reported by FAA and are comparable
to the attrition rates for FY 2008 and FY 2010, which were 31 percent and
22 percent, respectively. By excluding in-progress controllers, our rate reflects the
actual percentage of controllers who have been certified or left the training
program. These attrition rates are a more complete and accurate measure of the
effectiveness of the controller training program because they will not change as
more controllers complete their training. After we discussed our results with FAA
program officials, they began calculating completion and attrition rates without in-
progress controllers in addition to their current calculations.

                                                  Figure 3. OIG Analysis of FAA’s Training Data
                                                            (FY 2008 - November 2009)
                                           100%
                                           90%
   Status of Controllers Ending Training




                                           80%
                                                       69%
                                           70%                                 79%
                                                                                             78%
              in a Fiscal Year




                                           60%
                                           50%
                                           40%
                                           30%
                                           20%
                                                       31%
                                           10%                                 21%           22%
                                            0%
                                                      FY 2008                 FY 2009       FY 2010

              Source: FAA                                        Attritions     Successes
                                                                                  7


CONCLUSION
The safety of the National Airspace System relies on having a fully staffed, well-
trained air traffic controller workforce. To maintain the controller workforce in
light of recent increases in controller retirements, FAA faces tremendous
challenges in executing its plans to train nearly 11,000 new controllers over the
next 10 years. Having accurate metrics to measure and report on the effectiveness
of its controller training program should be a critical component of that plan.
However, FAA’s current metrics do not portray an accurate picture of the
program’s success. If the actual number of new controllers who do not complete
initial training is greater than FAA anticipates, the Agency runs the risk of not
maintaining a sufficient number of fully trained controllers at some of the most
complex air traffic control facilities in the National Airspace System.

RECOMMENDATION
To help identify controller training program needs and provide a more accurate
picture of its training program success, FAA needs to modify its training metrics
by removing controllers still in training from its attrition and completion
calculations. Specifically, we recommend that FAA replace its current training
metrics with metrics that focus on how many controllers complete their training or
leave the program during a given period of time.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on February 25, 2011, and received its
response on March 17, 2011. FAA concurred with our recommendation and has
taken acceptable corrective actions. FAA’s entire response is included at the
appendix to this report.

ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we are closing
the recommendation. We appreciate the courtesies and cooperation of FAA
representatives during this audit. If you have any questions concerning this report,
please contact me at (202) 366-0500 or Bob Romich, Program Director, at (202)
366-6478.

                                         #

cc:   Anthony Williams, AAE-001
      Martin Gertel, M-100
                                                                                 8



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from November 2009 to January 2011 in
accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
during this audit provides a reasonable basis for our findings and conclusions,
based on our audit objectives. The following scope and methodology were used in
conducting this review. During this audit we visited FAA Headquarters.

To evaluate the actions taken by FAA to improve the tracking of the training
progress of newly hired controllers, we evaluated the current accuracy of the data
contained in FAA’s National Training Database (NTD). We compared the total
number of new controllers in training for FY 2009 that was recorded in the NTD
against the same population contained in the Federal Personnel Payroll System
(FPPS). Additionally, we interviewed FAA personnel from the Office of
Technical Training and Development to determine the extent of FAA’s
compliance with the recommendations in our June 2009 audit report, “Training
Failures Among Newly Hired Air Traffic Controllers.”

Finally, we evaluated FAA’s methodology for calculating controller training
metrics. We conducted interviews with managers from the Office of Technical
Training and Development to discuss the accuracy and validity of FAA’s
controller training attrition rate, as an indicator of the effectiveness of the new
controller training program. We also developed an alternative metrics calculation
(calculated by dividing unsuccessful controllers by all completions which means
we do not include new controllers whose completion status is still pending) and
presented both methodologies to the OIG statistician for an analysis of the
statistical validity of both metrics calculations.




Exhibit A. Scope and Methodology
                                                          9



EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                   Title

Daniel Raville                         Program Director

Robert Romich                          Project Manager

Erik Phillips                          Senior Analyst

Petra Swartzlander                     Statistician

Benjamin Huddle                        Analyst

Mi Hwa Button                          Analyst

My Phuong Le                           Analyst

Andrea Nossaman                        Writer/Editor




Exhibit B. Major Contributors to This Report
                                                                                                    10



APPENDIX. AGENCY COMMENTS


                     Federal Aviation
                     Administration

Memorandum
Date:          March 17, 2011
To:            Jeffery B. Guzzetti, Assistant Inspector General for Aviation and Special Program
               Audits
From:          Clay Foushee, Director, Audit and Evaluations, AAE-1
Subject:       OIG Draft Report: FAA Must Improve Its Controller Training Metrics To Help
               Identify Program Needs

The FAA has successfully produced new controllers at the volume and speed described in the
Controller Workforce Plan and has replaced about 25 percent of the workforce with a new
generation of fully qualified controllers while maintaining high standards for certification. To
help gauge if controllers are certifying at the right place and at the right time, FAA focused on
developing solid and representative metrics. We continue to improve the processes for tracking
and measuring training effectiveness to help ensure that facilities across the nation will have
enough qualified controllers for the safe and efficient operation of the most complex airspace
system in the world.

In 2010, the Office of Technical Training established a new Quality Assurance and Reporting
group to oversee training metrics and evaluate how well both individual and organizational
competency developed for the technical workforce, with a focus on cost, performance and
people. We aggressively pursued data to establish and maintain measurable and meaningful
metrics to assess performance. As a result, there are now nearly 70 reportable indicators to
evaluate training performance for FAA’s technical workforce. Forty of these measurements
provide the agency with specific feedback on controller training.

In order to provide a comprehensive indicator of training effectiveness, FAA uses multiple
metrics. In addition to the indicators detailed in the OIG report, FAA also measures the number
of Certified Professional Controller (CPC) completions, the number of controller developmentals
in training, the number of controller developmentals who complete various stages of training, the
time to CPC certification, the on-time CPC completion rate and average on-the-job training
hours. The combination of these indicators provides a more holistic perspective of controller
training effectiveness than any single metric.

In addition to monthly metrics used by the training organization, there are Quarterly Business
Review discussions with leadership from other air traffic control service units, such as En Route



Appendix. Agency Comments
                                                                                                   11


and Terminal, to share the latest performance indicators. These reviews focus on strategies to
improve the agency’s training effectiveness and how the training organization can better support
air traffic technical training needs. These interactions with the service organizations have been
helpful in identifying the potential for FAA to continue to improve its methods for measuring
training effectiveness during the hiring surge.

The following is provided in response to the OIG’s recommendation:

OIG Recommendation: To help identify controller training program needs and provide a more
accurate picture of its training program success, FAA needs to modify its training metrics by
removing controllers still in training from its attrition and completion calculations. Specifically,
we recommend that FAA replace its current training metrics with metrics that focus on how
many controllers complete their training or leave the program during a given period of time.

FAA Response: Concur. The FAA needs to provide an accurate assessment of its training
program success, which FAA has implemented with the combination of metrics described above.
FAA recognizes the potential to further improve these metrics, and agrees that the standard
recommended by the OIG report provides a useful addition to its suite of training effectiveness
metrics. Prior to the issuance of this response, FAA incorporated this “Air Traffic Facility
Unsuccessful Completion Rate (at completion)” indicator into the metrics program. However,
measures that include controllers still in training in our attrition rates serve specific workforce
planning projection and hiring purposes, and will continue to be generated as part of FAA's
comprehensive suite of metrics.

The FAA currently tracks training attrition over longer time periods in order to discern both
short- and long-term trends. Monitoring attrition by the fiscal year in which training began is a
valid indicator that provides feedback on each fiscal-year class, but useful data is also generated
by following this metric through until everyone hired in a given year completes training
successfully or fails. Until then, we include those controllers still in training, but monitor the
attrition rates over a 12-month time period to more accurately assess trends. We also expand this
metric to assess training progress over a 24-month period to assess both completions and attrition
on a biannual basis to help us determine if current hiring is sufficient to maintain adequate
controller staffing levels.

We go even further and use hiring, staffing and training effectiveness data to measure longer
term projections in controller staffing. These indicators provide high value in our overall
training metrics suite, which are used to convey a complete picture of the overall controller
training program effectiveness. The FAA intends to continue to use each of these metrics, along
with the metric recommended by OIG to measure both workforce planning and training
effectiveness. Actions pursuant to this recommendation are considered complete.




Appendix. Agency Comments
